EVALUATION OF
VULNERABILITIES TO
UNDERREPORTING:
Royalty-in-Value
versus Royalty-in-Kind
Report No. 2002-I-0044
August 2002




                         1
                                                                          D-IN-MMS-0004-2002


                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240


                                                                              September 12, 2002

Memorandum

To:        Director, Minerals Management Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Advisory Report on Evaluation of Vulnerabilities to Underreporting:
           Royalty-in-Value Versus Royalty-in-Kind (No. 2002-I-0044)

       The attached Advisory Report presents the results of our comparison of the Minerals
Management Service’s (MMS) royalty-in-value (RIV) program to its royalty-in-kind (RIK)
program to determine which was more vulnerable to underreporting. We performed the
evaluation at the request of the Deputy Secretary.

        We determined that the RIV program was more vulnerable because the lessee established
the basis for valuing the oil and gas and the transportation and processing costs. The RIK
program was not as vulnerable because MMS received actual proceeds from oil and gas sales
and paid actual transportation and processing costs. However, we did find instances where RIV
would be preferable. In addition to these findings, we concluded that MMS could improve its
controls over the RIK program in the areas of gas imbalances, credit line approval, manual data
entry, and sales contract limitations.

        We conducted our evaluation from January through February 2002 at RIK program
offices in Lakewood, Colorado, and at MMS Compliance and Asset Management offices in
Houston, Texas, and Washington, D.C. Our evaluation was performed in accordance with the
President’s Council on Integrity and Efficiency Quality Standards for Inspections.

        We presented the results of our evaluation to you, the Deputy Secretary, and the Assistant
Secretary for Land and Minerals Management on April 29, 2002 and the Deputy Director of
MMS, the Associate Director for Minerals Revenue Management, and other MMS officials on
May 3, 2002. MMS management officials generally concurred with our conclusions and
indicated that they have initiated actions to address the control issues noted in our report.

       A response to this report is not required. However, we would appreciate being kept
informed of actions taken regarding the matters contained in our evaluation. We will list this
advisory report in our semiannual report to Congress, as required by section 5(a) of the Inspector
General Act (5 U.S.C. app.3).


Attachment: PowerPoint Presentation
Objective
 To compare the risks of underreporting oil and
 gas royalties due the Government between
 Royalty-In-Value and Royalty-In-Kind processes.
 To identify opportunities for improved controls for
 reducing vulnerabilities with the Royalty-In-Kind
 process.



                                                   2
Background
 The Mineral Leasing Act of 1920 and the Outer
 Continental Shelf Lands Act of 1953 authorize the
 Federal Government to receive its royalty share of oil
 and gas production either in-value or in-kind.
    Royalty-In-Value (RIV): MMS receives payments for oil and
    gas based on values assigned by lessee.
    Royalty-In-Kind (RIK): Royalties are received by MMS as
    products (oil/gas) from lessees that MMS then markets and
    sells.


                                                                3
MMS collects, accounts for, and disburses to its
recipients about $5 billion in mineral revenues
annually.
Historically, most of these revenues have been
received in the form of RIV payments.
MMS started its first RIK by taking gas from the
Gulf of Mexico in 1995.



                                                   4
In 2001, MMS published “Implementing Royalty
in Kind, Business Processes and Support
Systems, Road Map to the Future” which
included:
  Creating processes and organizational structures
  Acquiring technology solutions
  Changing reporting requirements
  Communicating with industry



                                                     5
Current Production Status
 Total Daily Royalty Production
     Onshore – 27,000 barrels oil, 682 million cubic feet gas
     Offshore – 220,000 barrels oil, 2.1 billion cubic feet gas
 RIK exists:
    Onshore - Wyoming total royalty production is 10,000
    barrels/day
     – Oil – 40% of total production (4,000 barrels/day)
    Offshore – Gulf of Mexico
     – Oil – 50% of production (110,000 barrels/day)
     – Gas – 15% of production (320 million cubic feet/day)
     Offshore – Pacific Oil
      - 14,000 barrels/day royalty production
      - 9,300 barrels/day RIK
                                                                  6
Future Production Status
   MMS management stated that, during 2002, it will
   increase RIK for Gulf oil to 80% of total production to
   fill the Strategic Petroleum Reserve




                                                         7
      RIK Process                       versus                  RIV Process
   Selects
 Properties                                                              Operator/Lessee
   to pay                                                                  pays MMS
   in-kind
                                                                             MMS
MMS Sells,
                                                                            Analyzes
  through
                                                                           Production
competitive
  bids, to        Oil/Gas is Transported
Purchaser **                                                                 MMS
                                                                            Conducts
Purchaser                                                                    Audit
   Buys
  Oil/Gas                                                                   MMS
From MMS                                                                   Conducts
** the Minimum Acceptable Bid is a key control that MMS uses to
                                                                             Case
determine whether a Property should be converted to RIK or remain RIV.     Resolution
The bid must MEET or BEAT what would’ve been collected through RIV.
                                                                                           8
RIV Underpayment Vulnerabilities
 Valuation is reported by lessee
 Transportation and processing costs are
 deducted by lessee
 20 years of audits/Qui Tam resulted in
 underpayment detections totaling $2 billion
   Oil posted prices did not reflect actual proceeds
 Accuracy of valuation and deductions taken
 must be verified.

                                                       9
RIV Posted Price Example
   A large vertically integrated oil company can buy and
   sell oil from within its own company.
   Allowed the company to control the value
   Posted price of $20/barrel
   Sold the processed oil products for the equivalent of
   $22/barrel
   Only paid royalties for the posted price of $20 which
   was $2/ barrel below actual value

                                                      10
Lease
                                     Actual value           $22
                                     Posted price           $20
        Meter
$                                    Excess                  $2

        $       Refinery             $2 x royalty % = underpayment


                 $         Distributor


                                         Gas Truck
                               $

                                                     Gas Station
                                            $

                                                      $       Motorist
                                                                   11
Amount of Underpayments - RIV
 Since 1982, MMS and OIG Audits and
 Investigations reported $2 billion in royalty
 underpayments.




                                                 12
                        MMS RIV Audit Findings
                                         RIV Violations in Dollars
                                            FY 1999 - FY 2001
                                   74,890

                        80,000

                        70,000

                        60,000
                        50,000

                        40,000
                                               13,195
                        30,000
                                                                      5,790




dollars (in millions)
                        20,000                           1,586                   1,628

                        10,000

                           -
                                 Value    Allowance   Volume     Settlments   Unpaid



                                                                                         13
RIV Efficiencies
 On-Shore
   Wells with low volume
   Thin markets
   High transportation costs




                               14
RIK Vulnerabilities
 Imbalances
   Imbalances occur when the purchaser receives more
   or less oil/gas than entitled.
   Imbalances are a frequent occurrence.
   The government is vulnerable until the imbalance is
   identified, reconciled and settled in a timely manner.




                                                       15
 RIK Efficiencies
Valuation established by     Certainty of payments and
MMS using fair-market        potential increase of
sale and receives actual     revenue over RIV
proceeds from sale
MMS negotiates and           Certainty of costs
pays actual transportation
and processing costs
Reduces need for MMS         Utilizes less resources:
                               Audit
verification audits
                               Litigation               16
 RIK / RIV Performance


RIK (FY 2001)                 RIV (FY 2001)
  21 employees                   About 322 employees
  Collected $1.4 billion         Collected about $6 billion
  4 month transaction cycle      6+ year transaction cycle




                                                              17
      Production Period

RIK




                                                                                                  ?
                          4 months 12 months                           36 months           72 months




RIV       Operator pays                       Exception Processing                     Appeals
              MMS                           Property/Payor Analysis                  Litigation
                                         Payor Letters and Meetings                Settlements
                                                    Targeted Audits
                                              Quality Control Audits
                                                     Random Audits
                                                               Ran

                                                                                            18
Conclusion
RIV is much more susceptible to underreporting than RIK.
RIV allows lessee to report valuation basis and take
deductions for transportation and processing costs.
RIK is substantially LESS susceptible because valuation
is established by fair-market sale, MMS receives actual
proceeds from sales, MMS negotiates and pays actual
transportation and processing costs
However, there are opportunities to improve controls
within the RIK process.

                                                       19
Opportunities for Improved RIK
Controls & Increased Revenues
 Gas imbalances
 Approval of Credit
 Manual data entry
 Limitation on Sales Contract Length




                                       20
Gas Imbalances
 Gas imbalances occur when the producer/lessee
 delivers to MMS gas volumes that either exceed
 or do not meet the requirements of the lease.
 The responsibility for managing oil and gas
 imbalances are split between:
   Oil - the RIK/CAM program offices
   Gas - the Compliance and Asset Management
   (CAM) Group

                                               21
According to the “Operator Gas Imbalance Draft
Assessment” (March 2002)
  Some gas imbalances have not been worked as far back as
  April, 2001. Most of the imbalances have been unresolved
  since June, 2001.
  CAM’s is responsible for resolving imbalances of about 240
  operators and 156 FMP’s.
  RIK Program Office and CAM’s will be assessing the
  underlying causes of the gas imbalances and will develop
  plans for their prompt resolution.

However, oil imbalances were generally identified
within 30 days of production by the RIK/CAM program
offices.
                                                               22
Suggestion
 We suggest that the Director, MMS adopt and
 implement the processes used by the RIK/CAM
 program offices for oil imbalances as a model for
 addressing the gas imbalances.




                                                 23
         Approval of Credit
  Only 2 people oversee and approve credit lines.
  Approval from upper management is not utilized.




We suggest that the RIK program office require
senior management approval of all credit
lines authorized for RIK production purchases.

                                                    24
Manual Data Entry Processes
 The RIK program uses an extensive amount of manual
 data entry processes that are not independently
 verified. Manual data entry processes are employed in
 the assemble minimum acceptable bid, conduct bid
 analysis, credit process and analyze post production.
 For example:
    During the credit process, RIK personnel manually enter
    critical information from a company’s financial statements into
    a credit scoring model that is relied upon to determine a
    company’s credit line. In addition, key formulas within the
    credit scoring model are also manually entered.

                                                                 25
Suggestion
 We suggest that MMS implement an
 independent review procedures for all manual
 data entry processes until automated systems
 are employed to replace these processes.




                                                26
      RIK Contract Length
Contract length varies only from 4 to 12 months.
This prevents MMS from offering more lucrative
contracts to buyers of RIK production and prevents
MMS from receiving better discounts for
transportation.
Longer contracts could provide more competition for
oil/gas transportation and reduce limitations imposed
by privately owned pipelines.


                                                    27
Viosca Knoll Gathering System
                   Sonat
                    Free
                    Pooling
    Columbia        (Full)                           Destin
                              Transco                IT = $.20/
      IT = $.05/                                     MMBtu
      MMBtu                    Williams
                               buys at
                               interconnect


                                                      MP 252
                                                      Tahoe Unit

                       VKGS   $.10
                                        VK 956
                                        Ram Powell

                                                            28
Suggestion
  We suggest that:
  MMS seek decision from the Comptroller General to
  determine whether legislation is required for
  extension of the contract terms
  MMS seek legislative authorization, if required, for
  extending RIK contracts for 5 years.




                                                     29
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
